              U.S. Department of Energy
              Office of Inspector General
              Office of Audits and Inspections




Audit Report
Long-Term Storage of Cesium and
Strontium at the Hanford Site




OAS-L-14-04                         March 2014
                                  Department of Energy
                                      Washington, DC 20585

                                         March 26, 2014


MEMORANDUM FOR THE MANAGER, RICHLAND OPERATIONS OFFICE



FROM:                    David Sedillo, Director
                         Western Audits Division
                         Office of Inspector General

SUBJECT:                 INFORMATION: Audit Report on "Long-Term Storage of Cesium
                         and Strontium at the Hanford Site"

BACKGROUND

One of the many significant cleanup challenges faced by the Department of Energy (Department)
is the ongoing management of stored cesium and strontium capsules at the Hanford Site's Waste
Encapsulation and Storage Facility (WESF). From 1974 to 1985, cesium and strontium were
recovered from high-level waste storage tanks at the Hanford Site, packed in corrosion-resistant
capsules, and placed in underwater storage at WESF. Currently 1,936 capsules of radioactive
cesium and strontium containing 53 million curies are stored at WESF. The Richland Operations
Office's (Richland) baseline plan for disposing of the capsules, completed in 2007, calls for
"direct disposal" of the capsules at Yucca Mountain. However, in Fiscal Year 2010, the
Department withdrew its intent to develop a geological repository at Yucca Mountain. The
Department's new goal, as of January 2013, is to have a repository sited by 2026 and to begin
operations by 2048. Therefore, long-term stewardship of the capsules will require interim
storage until final disposal can be achieved, no earlier than 35 years from now.

The March 2011 tsunami and subsequent events at the Fukushima Dai-Ichi Nuclear Power Plant
in Okuma and Futaba, Japan highlighted the vulnerabilities to nuclear facilities from possible
seismic and natural disasters that are more severe than the facilities' original design, or "beyond
design threats." One possible threat is a severe earthquake that may result in loss of power
and/or loss of water in the WESF pool. The Department's Office of Environmental Management
considers WESF its largest "beyond design threat" facility, and has identified movement of the
capsules to dry storage as a potential interim measure to mitigate the risk posed by these threats.
Given these risks, we initiated this audit to determine whether the Department is effectively
managing the long-term storage of cesium and strontium capsules.

RESULTS OF AUDIT

Richland has initiated action to begin to address some of the challenges posed by continued
storage of cesium and strontium capsules in the WESF. Such action appears prudent in that
continued storage of the capsules in WESF is not cost effective and may pose additional risks to
the environment associated with beyond design threats at the Hanford Site. While Richland is
considering options for dry storage, there are no definitive
plans to move the capsules to a safer and more cost
effective storage system.

                     Costly Wet Storage

We found that the continued storage of the capsules in
"wet-storage" at WESF resulted in a higher operating cost
than the "dry storage" alternative under consideration.
According to information prepared by the Richland
contractor, CH2M HILL Plateau Remediation Company
(CHPRC), it would cost approximately $83 million to $136
million to move the capsules from WESF into a dry storage
facility. Once in dry storage, operating costs would be
about $1 million annually. Currently, Richland spends
approximately $7.2 million per year for operations at
WESF. Therefore, each year Richland delays moving the
capsules into dry storage it misses an opportunity to realize        Capsules in WESF pool cells
cost savings of about $6.2 million, the difference between
the costs to operate "wet" and "dry" storage. It is important to note that the cost to construct an
interim dry storage facility must be incurred at some point, so the earlier this occurs, the more
operating costs can be saved.

                                        Degrading Facility

We noted that WESF is more than 9 years past its design life, and has experienced degradation of
key structures and systems relied on for safety. Specifically, the facility began operations in
1974 with a design life of 30 years, but has now been in service for more than 39 years. Also,
the concrete in the WESF pool cells has begun to deteriorate due to years of radiation exposure,
according to a recent Safety Evaluation Report conducted by Richland. Weakened concrete in
the walls of the pool increases the risk that a beyond design earthquake would breach the walls,
resulting in loss of fluid, and thus, loss of shielding for the capsules. Richland officials informed
us that the pools walls were still safe despite the damage, citing various design elements in the
facility.

Richland has taken some actions to mitigate the beyond design threats at WESF. Richland
required CHPRC to annually update its nuclear safety basis documents which include the
Documented Safety Analysis and Hazards Analysis. Also, Richland officials approved a WESF
Unresolved Safety Question regarding radiation degradation of pool cell concrete. This led to
CHPRC adjusting the placement of the capsules within each pool cell in a configuration to
reduce radiation exposure to the pool cell concrete, reducing heat, and increasing the amount of
time it would take for capsules to fail in a beyond design event where pool cell water is lost and
the capsules are uncovered. Richland officials also responded to the Assistant Secretary for
Environmental Management regarding the Secretary's March 23, 2011 Safety Bulletin No. 2011-

                                                  2
01, Events Beyond Design Safety Basis Analysis. In that response, CHPRC indicated that it
would add water to the storage facility pools from tanker trucks if a loss of pool cell water
occurs. Finally, we found that CHPRC had conducted emergency preparedness drills for Beyond
Design Seismic events. It is important to reiterate that beyond design scenarios are, by nature,
extremely improbable.

                                       Dry Storage Strategy

In addition to savings opportunities, movement of the capsules to a dry storage facility would
allow the capsules to be more safely stored for a longer period of time, action that is crucial
given that a permanent repository will not be available until the year 2048. Mindful of this,
management has initiated a number of preliminary actions to define its approach to dry storage.
One of the actions begun by Richland includes requesting that the contractor, CHPRC, to
develop a Mission Needs Statement to fully document the need for long-term interim dry storage.
However we noted that this process was not yet complete. The second major action taken by
management occurred in August 2013 when, at the direction of Richland, CHPRC issued a
request for information to prospective engineering firms to better estimate the cost and feasibility
of a dry storage option.

Richland management expressed support for constructing a dry storage facility; however,
management stated that it does not currently have the funding to do so due to other pressing
funding priorities at Hanford. Further, management stated that the existing structure is safe, can
withstand design basis threats, and there are contingency plans in place for events beyond design
basis. Accordingly, management stated that its present priority is to meet "minimum safety"
requirements for the existing facility, while driving to meet regulatory milestones. Given
funding constraints, we did not find this perspective to be unreasonable.

As noted in our Special Report: Management Challenges at the Department of Energy
(DOE/IG-0858, November 2011), the Department's current strategy of meeting facility
agreement such as the Tri-Party Agreement with states and regulators may not be sustainable if
the Department's remediation budget suffers major reductions. Accordingly, we suggested that
the Department consider revising its current remediation strategy and instead address
environmental concerns on a national, complex-wide risk basis. This would result in a form of
environmental remediation triage. Looking at the program holistically, funds would be provided
to high risk activities that threaten health and safety or further environmental degradation. As
previously discussed, WESF is beyond its design life and the Office of Environmental
Management considers it to be the largest "beyond design threat" facility, that is WESF is at the
greatest risk of any facility to the threat of a natural event occurring that is beyond its design
capacity to sustain.

PATH FORWARD

The Department is aware of the current safety conditions associated with the storage of cesium
and strontium capsules at WESF and has taken actions to mitigate any risks associated with
WESF. Furthermore, we acknowledge the budgetary challenges facing the Department, and its
impact on moving the capsules into dry storage. Therefore, we are not making any formal

                                                 3
recommendations. However, we suggest that the Manager, Richland Operations Office,
expeditiously proceed with its plans to pursue a dry storage alternative to support transfer of the
capsules out of WESF at the earliest possible timeframe.

Attachment

cc: Deputy Secretary
    Senior Advisor for Environmental Management
    Chief of Staff




                                                 4
                                                                                    Attachment 1


                       OBJECTIVE, SCOPE AND METHODOLOGY

OBJECTIVE

The objective of this audit was to determine whether the Department of Energy (Department) is
effectively managing the long-term storage of cesium and strontium capsules at the Hanford site.

SCOPE

The audit was performed from April 2013 to March 2014, at the Richland Operations Office, the
Waste Encapsulation Storage Facility (WESF), and the CH2M HILL Plateau Remediation
Company (CHPRC) in Richland, Washington. The audit was conducted under Office of
Inspector General Project Number A13RL028.

METHODOLOGY

To accomplish the audit objective, we:

   •   Researched and reviewed Federal regulations and Department guidance related to long-
       term storage of cesium and strontium capsules;

   •   Toured WESF to gain an understanding of how the cesium and strontium capsules are
       currently stored;

   •   Analyzed CHPRC cost and budgeting reports for WESF;

   •   Reviewed studies and reports related to Beyond Design Basis Events, concrete
       degradation, and exhaust ventilation system issues at WESF;

   •   Analyzed the Hanford Federal Facility Agreement and Consent Order milestones related
       to WESF;

   •   Reviewed the Draft Mission Needs Statement for the Management of Cesium and
       Strontium Capsules;

   •   Analyzed the Documented Safety Analysis and Hazard Analysis for WESF;

   •   Reviewed documents and reports related to the Departments long-term storage strategy of
       cesium and strontium capsules at WESF; and

   •   Held discussions with Department officials from the Office of Environmental
       Management, the Richland Operations Office, and CHPRC.

We conducted this performance audit in accordance with generally accepted Government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions

                                                5
                                                                        Attachment 1 (continued)


based on our audit objective. We believe that the evidence obtained provides a reasonable basis
for our conclusions based on our audit objective. Accordingly, we assessed significant internal
controls and compliance with laws and regulations necessary to satisfy the audit objective. In
particular, we assessed the Department's implementation of the GPRA Modernization Act of
2010 as it relates to our audit objective and found that the Department had established
performance measures applicable to relocating cesium and strontium capsules from WESF into
dry storage.

Because our review was limited, it would not necessarily have disclosed all internal control
deficiencies that may have existed at the time of our audit. We did not rely on computer-
processed data to achieve the objective of our audit.

Management waived an exit conference.




                                                6
                                                                                 Attachment 2


                                   PRIOR REPORTS

•   Audit Report on Management Controls over Cesium and Strontium Capsule Disposition
    at the Hanford Site, (OAS-M-06-06, August 2006). The audit found Richland Operations
    Office's preferred approach of direct disposal of the capsules in the Yucca Mountain
    Repository may not be the most viable or cost-effective approach to disposal. Although
    Richland was focusing its efforts solely on the direct disposal alternative, it had not
    completed studies recommended by several internal and external reviewers so that it
    could make an informed decision on the most appropriate path forward to disposing of
    the capsules; and it had not performed a formal cost analysis of the various options to
    disposal.

•   Audit Report on Safety Aspects Wet of Storage of Spent Nuclear Fuel, (OAS-L-13-11,
    July 2013). The audit found that due to a lack of a clear disposition path, the Department
    of Energy (Department) had not developed definite plans to dispose of its spent nuclear
    fuel (SNF). In FY 2010, the Department withdrew its intent to develop a geological
    repository at Yucca Mountain, Nevada to dispose of SNF. In 2011, the Department
    deferred processing SNF, some of which is in wet storage, until recommendations of the
    Blue Ribbon Commission on America's Nuclear Future were issued and evaluated. As a
    consequence, the Department determined it must maintain interim SNF wet storage
    facilities longer than planned and until disposition options became available.




                                            7
                                                                    IG Report No. OAS-L-14-04

                           CUSTOMER RESPONSE FORM

The Office of Inspector General has a continuing interest in improving the usefulness of its
products. We wish to make our reports as responsive as possible to our customers' requirements,
and, therefore, ask that you consider sharing your thoughts with us. On the back of this form,
you may suggest improvements to enhance the effectiveness of future reports. Please include
answers to the following questions if applicable to you:

     1. What additional background information about the selection, scheduling, scope, or
        procedures of the audit or inspection would have been helpful to the reader in
        understanding this report?

     2. What additional information related to findings and recommendations could have been
        included in the report to assist management in implementing corrective actions?

     3. What format, stylistic, or organizational changes might have made this report's overall
        message more clear to the reader?

     4. What additional actions could the Office of Inspector General have taken on the issues
        discussed in this report that would have been helpful?

     5. Please include your name and telephone number so that we may contact you should we
        have any questions about your comments.


Name                                          Date

Telephone                                     Organization

When you have completed this form, you may telefax it to the Office of Inspector General at
(202) 586-0948, or you may mail it to:

                               Office of Inspector General (IG-1)
                                     Department of Energy
                                    Washington, DC 20585

                                  ATTN: Customer Relations

If you wish to discuss this report or your comments with a staff member of the Office of
Inspector General, please contact our office at (202) 253-2162.
This page intentionally left blank.
The Office of Inspector General wants to make the distribution of its reports as customer friendly and cost
  effective as possible. Therefore, this report will be available electronically through the Internet at the
                                             following address:

                   U.S. Department of Energy Office of Inspector General Home Page

                                           http://energy.gov/ig

      Your comments would be appreciated and can be provided on the Customer Response Form.
